NATIONAL CREDIT UNION ADMINISTRATION




         OFFICE OF THE INSPECTOR GENERAL

                REPORT TO CONGRESS

               April 1, 1999 - September 30, 1999




                  THE NCUA MISSION

 TO ENSURE THE SAFETY AND SOUNDNESS OF CREDIT UNIONS

 BY PROVIDING APPROPRIATE REGULATION AND SUPERVISION,

  WHILE EFFECTIVELY MANAGING THE AGENCY'S RESOURCES

             AND THE SHARE INSURANCE FUND

                    ===================
     THE OFFICE OF INSPECTOR GENERAL MISSION

   TO PROMOTE ECONOMY, EFFICIENCY, AND EFFECTIVENESS

            IN NCUA PROGRAMS AND OPERATIONS,

  AS WELL AS PREVENT AND DETECT FRAUD, WASTE, AND ABUSE
                   INDEX OF REPORTING REQUIREMENTS

                    OFFICE OF INSPECTOR GENERAL
               NATIONAL CREDIT UNION ADMINISTRATION


SECTION                      DATA REQUIRED                          RESPONSE   PAGE REF
 4(a)(2)   Review of Legislation and Regulations                                  16
 5(a)(1)   Significant Problems, Abuses, or Deficiencies relating                 11
           to the administration of programs and operations
           disclosed during the reporting period.
 5(a)(3)   Recommendations with Respect to Significant                            11
           Problems, Abuses, or Deficiencies.
           Significant Recommendations Described in Previous
 5(a)(3)   Semiannual Reports on Which Corrective Action Has          None
           Not Been Completed.
 5(a)(4)   Summary of Matters Referred to Prosecution
           Authorities and Prosecutions Which Have Resulted.          None
           Summary of Each Report to the Board Detailing
 5(a)(5)   Cases Where Access to All Records Was Not                  None
           Provided or Where Information Was Refused.
 5(a)(6)   List of Audit Reports Issued During the Reporting                      20
           Period.
 5(a)(7)   Summary of Particularly Significant Reports.                           11
           Statistical Tables on Audit Reports With Questioned                    18
 5(a)(8)   Costs.
 5(a)(9)   Statistical Tables on Audit Reports With                               19
           Recommendations That Funds Be Put To Better Use.
5(a)(10)   Summary of Each Audit Report Issued Before the             None
           Start of the Reporting Period for Which No
           Management Decision Has Been Made by the End of
           the Reporting Period.
5(a)(11)   Description and Explanation of Reasons for any             None
           Significant Revised Management Decision Made
           During the Reporting Period.
5(a)(12)   Information Concerning Significant Management              None
           Decisions With Which the Inspector General is in
           Disagreement.
Inspector General’s Semiannual Report                      National Credit Union Administration


          INSPECTOR GENERAL'S MESSAGE TO THE CONGRESS


This year marks the tenth anniversary of the OIG at NCUA. It has been my pleasure to have
headed this office for the past seven of these years. I have seen the OIG grow from a handful of
accountants to today’s diverse and multi-talented team of three auditors, including those with skills
in financial, program, and EDP audits, an attorney/investigator, a second investigator, and an
administrative assistant. Our workload has grown and changed also, presenting us with new
challenges. We now supervise the conduct of financial audits of the agency’s four funds; we
conduct investigations of allegations ranging from employee misconduct to contract fraud; and we
have established the OIG strategic and annual planning process to complement the agency’s efforts
under the Government Performance and Results Act (GPRA.) This past semiannual period has
naturally focused on NCUA’s Y2K efforts within the agency and in the credit union community.
We are also continuing to pursue investigative work resulting from the 1997 OPM audit and in
other administrative areas where the agency may experience internal control weaknesses.

In addition, we have completely revised our OIG web page to be more useful and user friendly.
You will be able to find the new and improved OIG web page in the near future at
www.ncua.gov/oig or by clicking on Office of Inspector General from NCUA’s home page.


AUDIT HIGHLIGHTS

The OIG’s audit activities during the past reporting period have concentrated on monitoring the
completion of the agency’s Y2K compliance efforts in the credit union community and within the
agency. We have completed reports on NCUA’s internal mission critical systems, and credit union
progress in meeting NCUA’s milestones for completion of the Y2K renovation phase. In both
cases, we offered suggestions as matters for consideration by the NCUA Board and agency
management. NCUA has been very responsive to our suggestions. During this period we have
also reviewed the Y2K progress of high risk credit unions, Y2K liquidity contingency funding plans
of natural person credit unions, and Y2K status of credit union vendors.

The NCUA OIG received a joint award for excellence from the President’s Council on Integrity
and Efficiency (PCIE) and the Executive Council on Integrity and Efficiency (ECIE) at the 1999
awards program held on September 29, 1999. The award recognized the OIG’s from the Federal
Reserve System, the FDIC, the Department of the Treasury, and NCUA for their outstanding
efforts in planning and reporting on the Joint Review of the Federal Financial Institutions
Examination Council’s Training Program.

In addition, the OIG’s EDP auditor, Tammy Rapp, was recognized on September 28, 1999, by the
National Capital Area Chapter of the Information Systems Audit and Control Association for
achieving the second highest score on the 1999 Certified Information Systems Auditor (CISA)
examination in Washington, DC. Ms. Rapp's successful completion of the CISA exam
demonstrates her proficiency in information technology audit skills.



                                                                                            Page    i
Inspector General’s Semiannual Report                             National Credit Union Administration


INVESTIGATIVE HIGHLIGHTS

The bulk of our investigative resources this period has been spent in responding to a variety of new
allegations and completing investigative matters relating to the OPM audit report of 1997. We still
await the completion of action by the Office of Special Counsel (OSC) on its investigations into
alleged prohibited personnel practices during 1996-1997.1 When OSC is finished, then the agency
may be able to consider and take necessary corrective action and move on, and we will be able to
close some open issues. With the hiring of a part-time investigator we are already engaging in
more proactive reviews that have resulted in investigations, audit issues, and the use of a new tool,
Management Implication Reports. We are also gratified that the agency has published an
Instruction requiring reporting misconduct to the IG. I hope that the Instruction and a slightly
higher profile for our investigative function will further enhance our investigative presence within
the agency.

FUTURE PLANS

With Y2K completed, we expect to put more emphasis on completing the strategic and annual plan
goals.




                                                           Frank Thomas
                                                           Inspector General




1
  On October 19, 1999, the Special Counsel filed two complaints against NCUA employees with the Merit Systems
Protection Board. We have not yet been informed of her actions with respect to other employees against whom
allegations were made.

                                                                                                     Page       ii
                                       TABLE OF CONTENTS



INDEX OF REPORTING                                                                                             inside
REQUIREMENTS............................................................................................        front
                                                                                                               cover


INSPECTOR GENERAL'S MESSAGE TO CONGRESS.............................                                             i


NATIONAL CREDIT UNION ADMINISTRATION....................................                                         1


     NCUA Highlights.......................................................................................      4


     Federally Insured Credit Union Highlights..................................................                 7


     Legislative Highlights.................................................................................     9


OFFICE OF THE INSPECTOR GENERAL.................................................                                10


AUDIT ACTIVITY.........................................................................................         11


INVESTIGATION ACTIVITY.......................................................................                   14


LEGISLATIVE AND REGULATORY REVIEWS.......................................                                       16


OTHER INSPECTOR GENERAL ACTIVITIES...........................................                                   17


TABLE I – REPORTS WITH QUESTIONED COSTS................................                                         18


TABLE II – REPORTS WITH RECOMMENDATIONS                                                                         19
          THAT FUNDS BE PUT TO BETTER USE.............................


TABLE III – SUMMARY OF OIG ACTIVITY............................................                                 20
Inspector General’s Semiannual Report       National Credit Union Administration


    NATIONAL CREDIT UNION ADMINISTRATION

T      he National Credit Union Administration (NCUA) was established as an
       independent, federal regulatory agency on March 10, 1970. The agency is
responsible for chartering, examining, supervising, and insuring federal credit
unions. It also insures state-chartered credit unions that have applied for insurance
and have met National Credit Union Share Insurance requirements. NCUA is
funded entirely by credit unions; it does not receive any tax dollars. As of June 30,
1999, the NCUA was supervising and insuring 6,733 Federal credit unions and
insuring 4,161 state-chartered credit unions, a total of 10,894 institutions. This
represents a loss of 82 Federal and 19 State chartered institutions since the end of
1998, for a total loss of 101 credit unions nation-wide.

NCUA operates under the direction of a Board composed of three members. Board
members are appointed by the President and confirmed by the Senate. They serve
six-year terms. Terms are staggered, so that one term expires every two years. The
Board is responsible for the management of the National Credit Union
Administration, the NCUA Share Insurance Fund, the Central Liquidity Facility, and
the Community Development Revolving Loan Program.

The National Credit Union Administration executes its program through its central
office in Alexandria, Virginia and regional offices in Albany, New York; Alexandria,
Virginia; Atlanta, Georgia; Lisle, Illinois; Austin, Texas; and Concord, California.
NCUA also operates the Asset Management and Assistance Center (AMAC) in
Austin, Texas. Please refer to the NCUA organizational chart on page 3.

The NCUA Board adopted its 1999 budget on November 19, 1998. The final
revised 1999 budget of $122,962,349 represents an increase of $12.8 million over
the 1998 budget. The Full Time Equivalent (FTE) staffing authorization requested
for 1999 is 1042.15, an increase of 29 positions over the 1998 total of 1013.15.

The significant increase in the 1999 budget is necessary to provide for expanded
program goals and objectives for 1999, including employee merit increases, the Year
2000 (Y2K) issues, and an expanded corporate credit union program. The largest
part of the increase is for Y2K compliance, to ensure the integrity of credit union
information systems.


                                              1999          1998       Difference
          LOCATION                            FTE           FTE           FTE
          Headquarters                       228.40          214         14.40
          Regional Offices                   167.25        155.75        11.50
          Field Examiners                    640.50          636          4.50
           Total Positions Authorized        1036.15       1005.75       30.40


                                                                             Page 1
Inspector General’s Semiannual Report           National Credit Union Administration




  140,000

  120,000

  100,000

   80,000
                                                               Budget
   60,000

   40,000

   20,000

          0
               1995    1996     1997     1998       1999




   1040

   1020

   1000

    980

    960                                                       FTEs
    940

    920

    900

    880
              1995    1996    1997     1998      1999




                                                                             Page 2
    Inspector General’s Semiannual Report                                                                National Credit Union Administration


                                             NCUA ORGANIZATION CHART

                                                                                    -N C U A B O A R D -
                                                                                       C H A IR M A N


                                                  O F F IC E O F IN S P E C T O R                         O F F I C E O F C O M M U N ITY
                                                            GENERAL                                        D E V . C R E D IT U N IO N S

                                                            GENERAL                                             NCUA BOARD
                                                            COUNSEL                                               STAFF


                                             HEADQUARTERS                                                                 FIELD
                                             OFFICES                                   E X E C U T IVE                    OFFICES
                                                                                       D IR E C T O R


          O F F IC E O F                                     O F F IC E O F                                      R E G IO N I                    R E G IO N II
       GENERAL COUNSEL                          E X A M IN A T IO N & IN S U R A N C E                          ALBANY, NY                  A L E X A N D R IA , V A


              O F F IC E O F                                O F F IC E O F                                      R E G IO N III                  R E G IO N IV
T E C H N O L O G Y & IN F O R M A T IO N            C O R P O R A T E C R E D IT                              ATLANTA, GA                       L I S L E , IL
              S E R V IC E S                                  U N IO N S

         O F F IC E O F                                  O F F IC E O F T H E                                    R E G IO N V                 R E G IO N V I
      HUMAN RESOURCES                            C H IE F F IN A N C IA L O F F IC E R                          A U S T IN , TX              CONCORD, CA


             O F F IC E O F                                  O F F IC E O F                              ASSET MANAGEMENT &
         A D M INISTRATION                         IN V E S T M E N T S E R V IC E S                      ASSISTANCE CENTER
                                                                                                              A U S T IN , TX


     O F F IC E O F P U B L IC &                  O F F IC E O F T R A I N IN G &
    C O N G R E S S IO N A L A F F A I R S           DEVELOPMENT




                                                                                                                                                              Page 3
Inspector General’s Semiannual Report       National Credit Union Administration


                          NCUA HIGHLIGHTS
Follow-up on last Semiannual’s Highlights

CONGRESS, PRESIDENT GRANT CLF CAP ADJUSTMENT

On May 21, 1999, President Clinton signed a midyear spending bill (HR 1141) that
authorized the NCUA Central Liquidity Facility (CLF) to fully utilize its borrowing
authority under the Federal Credit Union Act. That act effectively raised the CLF
borrowing cap from $500 million to $20 billion.

In addition to raising the funds cap, the Federal Reserve also approved a Century
Date Change Special Liquidity Facility to help depository institutions meet any
increased cash demands in connection with Y2K. The facility, available between
October 1, 1999 and April 7, 2000, augments other efforts to meet liquidity needs,
such as the CLF increased borrowing authority. The NCUA and the Federal
Reserve have met to implement the borrowing authority.

We audit the CLF each year as part of the agency’s financial statement audits.


SMALL CREDIT UNION PROGRAM IMPLEMENTED

The NCUA has implemented the Board’s endorsement on March 18, 1999, of a
national program to promote small credit unions and to encourage the formation of
new credit unions. The agency has hired six new Economic Development Specialists
(EDS’s) to work in the regional offices providing technical assistance to low income
and small credit unions. The EDS’s help credit union organizers with chartering
and provide in-depth, hands-on training to credit union staff in operational and
managerial matters.

An audit of the small credit union program and related activities is included in our
five year strategic plan for 1999 - 2003.


New Highlights

OVER 99% FEDERALLY INSURED CREDIT UNIONS Y2K READY

In September 1999, the NCUA reported that 99.3% of all federally insured credit
unions had finished repairing, testing and verifying their computer systems to ensure
the processing of transactions on January 1, 2000. Over the past 18 months, NCUA
examiners visited every federal credit union twice and some will have a third visit
before the end of the millennium.



                                                                             Page 4
Inspector General’s Semiannual Report        National Credit Union Administration

NCUA hosted its third information systems vendor conference on June 10, 1999, in
Phoenix, AZ. NCUA Regional directors and staff, along with 32 state supervisors
and two Federal Financial Institution Examination Council (FFIEC) representatives
met with 50 representatives of information system vendors. Participants discussed
business resumption contingency plans, Y2K liquidity planning, and testing.

The Inspector General is auditing the Y2K status of credit union vendors and Y2K
liquidity contingency funding plans of federally insured natural person credit
unions (See the Audits In Process section).

CHAIRMAN INTRODUCES LOW INCOME PROPOSAL

At a press conference on July 28, 1999, a few days before the official end of his six-
year appointment, Chairman D’Amours unveiled a controversial proposal to require
credit unions to demonstrate that they are fulfilling their mission to serve people of
modest means. The major credit union trade associations raised an immediate
outcry, claiming that the proposal would unfairly increase regulatory burden. They
were joined by Senator Phil Gramm, who held hearings to speak out against the
proposal. The proposal did garner some support from several parties, including
consumer groups, members of Congress, credit unions, and other trade associations.
At the September 16, 1999 Board meeting, the Chairman introduced the proposal
formally, but it failed for lack of a second. Board Member Dennis Dollar spoke at
length against the proposal; Board Member Wheat praised the idea, but said there
were some flaws in the current language that needed to be fixed. Chairman
D’Amours has stated that his proposal is not “CRA.” It simply asks credit unions to
state how they will reach out to low-income consumers within their fields of
membership.


BOARD MEMBER DOLLAR PREPARES TO RELEASE “REG-FLEX”

On October 6, 1999, Board Member Dennis Dollar announced his intention to
propose a plan to decrease regulatory burden on credit unions, to be unveiled by the
end of the first quarter of 2000. The plan, still in the development stage, would
remove certain specific regulatory requirements for credit unions that meet a safety
and soundness trigger, likely a combination of capital ratios and CAMEL rating.
Mr. Dollar said that his proposal was an attempt to encourage greater credit union
innovation in member service initiatives and to help improve the ability of credit
unions to compete.


BOARD MEMBER WHEAT URGES CLOSURE OF TECHNOLOGY GAP

Board Member Yolanda Wheat told the NAFCU Congressional Caucus on October
5, 1999, that credit unions needed to accelerate their use of the Internet to provide
financial services in order to remain competitive. She also noted the troubling gap

                                                                              Page 5
Inspector General’s Semiannual Report         National Credit Union Administration

developing between households with access to computers and the Internet and those
without access. She asserted that this “technology gap” also exists in the credit
union community and it is part of NCUA’s charge to help find ways to bridge this
gap, especially where it is compounded, as in the case of credit unions with limited
resources.


GAO CRITIQUES NCUA ON CYBER-BANKING EXAMS

In a study of all Federal financial regulators released July 6, 1999, the General
Accounting Office criticized NCUA for failing to examine credit unions’ Internet
banking operations. While none of the agencies reviewed had put a great deal of
resources into the area, only NCUA was scolded for having done nothing. In its
defense, the agency pointed out that it has placed most of its few resources on Y2K
issues in the past year. Moreover, it has hired three people to work specifically on
online issues, and is beginning to write programs for monitoring credit unions’
activity in this burgeoning area.


COURT UPHOLDS NCUA CONSERVATORSHIP OF POLISH SLAVIC
FCU

In a controversial ruling, the United States District Court, in the Eastern District of
New York, on July 9, 1999, upheld the agency’s placement of the Polish Slavic
Federal Credit Union, the largest ethnically based credit union in the country, into
conservatorship. The credit union had argued that the NCUA’s investigator was
ethnically biased and challenged the agency’s assertions that the credit union had
currency reporting violations and was poorly managed. The credit union convinced
the judge to remand the decision to the NCUA Board for review of an expanded
record. On June 15, 1999, the Board reaffirmed its original decision. The Court
agreed, stating that there was substantial proof from which the Board could find,
“serious deficiencies in the credit union’s operational structure, internal controls,
asset liability management and business planning, as well as conflict of interest and
Bank Secrecy Act violations.”




                                                                               Page 6
Inspector General’s Semiannual Report         National Credit Union Administration


FEDERALLY INSURED CREDIT UNION HIGHLIGHTS


C
       redit unions submit semiannual call reports (financial statement data) to
       NCUA. An NCUA staff assessment of reports from the first half of 1999
       submitted by all federally insured credit unions for the period ending June
30, 1999, found key financial indicators continue to be strong in all areas.


ASSET GROWTH AND CAPITAL ACCUMULATION CONTINUE

Assets grew by 4.7%, up from $388.7 to $407 billion. Capital increased $1.3 billion
(2.9%) during the first half of 1999, and the capital to assets ratio declined 11.3%

LOAN GROWTH INCREASES AT A SLOWER RATE

Loans grew 3.8%, up from $245.7 to $255 billion. Two loan categories accounted
for the increase: First mortgage real estate loans increased $5.7 billion (9.3%
increase); and used auto loans increased $3.2 billion (6.7% increase).
Federally insured credit unions granted $13.1 billion in fixed rate first mortgage real
estate loans in the first half of 1999. During this same period, $4.4 billion fixed and
adjustable rate first mortgages were granted.

The slower rate of loan growth (5.8%) ended a 5-year trend of loan growth
exceeding the rate of share growth (10.7% for 1998.) As a result, the loan to share
ratio decreased to 72.3%, the lowest level since 1995.

SHARES INCREASE, LED BY REGULAR SHARES

Total shares increased $16.6 billion or 4.9% in the first half of 1999, compared to
5.7% during the same period in 1998, with most of the growth in regular shares
($8.3 billion, 6.4% increase). Consistent with the large increases in share drafts,
regular shares and money market accounts, share growth in 1998 was concentrated
in shares with maturities less than one year. These shares increased $30.4 billion
(11%) and represented 93% of all share growth.

DELINQUENT LOANS DECREASE

Delinquent loans decreased 9.9% causing the delinquency ratio to decline from
0.9% at the end of 1998 to 0.8% as of June 30, 1999. This represents the lowest
delinquency rate since mid 1996. Net charged off loan dollars decreased 9.3%. A
decrease in charged off loan dollars, increase in recoveries, and increase in total
loans produced a decline in the net charge off to average loans ratio to 0.5%




                                                                               Page 7
Inspector General’s Semiannual Report       National Credit Union Administration

Bankruptcies declined slightly during the first half of 1999. Credit unions reported
over $600 million in outstanding loans subject to bankruptcies. Nearly 116,000
credit union members filed for bankruptcy during the first half of 1999 (0.2% of all
members).




                                                                            Page 8
Inspector General’s Semiannual Report          National Credit Union Administration


                    LEGISLATIVE HIGHLIGHTS




CREDIT UNION PROVISIONS IN APPROPRIATION BILLS

As we go to press, Congress is debating appropriations measures that did not get
passed by the end of the federal fiscal year, September 30, 1999. Some of the bills
being considered now contain provisions of interest to credit unions. In the VA-
HUD appropriations act, HR 2684, the House version includes an additional $1
million for the NCUA Community development Revolving Loan Fund.

We are also following privacy provisions in the current Financial Modernization
legislation, S.900, although it contains relatively few other provisions in this law that
apply to credit unions.        The current version of the bill would permit almost
unlimited information sharing between affiliated companies, but credit unions could
be subject to the stricter limits on information sharing with third parties.

The Federalism Act, HR 2245 and S.1214, would impose significant new burdens
on federal agencies when promulgating regulations or guidance and limit the ability
to pre-empt State law. Financial institution regulators plan to send a letter to the
Senate Banking Committee Chairman Phil Gramm opposing S.1214 as a threat to
safety and soundness.




                                                                                Page 9
Inspector General’s Semiannual Report                                          National Credit Union Administration


                      OFFICE OF INSPECTOR GENERAL



T
       he Office of Inspector General was established at the NCUA in 1989 under
       the authority of the Inspector General Act of 1978, as amended in 1988.
       The staff consists of the Inspector General, an Assistant Inspector General
for Investigations/Counsel, a part-time Investigator, an Assistant Inspector General
for Audits, two Senior Auditors, an EDP Auditor and an Administrative Assistant.

The Inspector General reports to, and is under the general supervision of, the
NCUA Board. The Inspector General is responsible for:

1. Conducting, supervising, and coordinating audits and investigations of all
   NCUA programs and operations;

2. Reviewing policies and procedures to ensure efficient and economic operations
   as well as preventing and detecting fraud, waste, and abuse;

3. Reviewing existing and proposed legislation and regulations to evaluate their
   impact on the economic and efficient administration of agency programs; and

4. Keeping the NCUA and Congress apprised of significant findings and
   recommendations.
.



                                                                     FRANK THOMAS
                                                                 IN S P E C T O R G E N E R A L


              W ILLIAM D E S A R N O                  A L E X A N D R A K E IT H , L E G A L C O U N S E L /            DENISE CLARKE
   A S S IS T A N T I N S P E C T O R G E N E R A L      A S S I S T A N T IN S P E C T O R G E N E R A L      A D M IN IS T R A T IV E A S S I S T A N T
                   FOR AUDITS                                      F O R I N V E S T I G A T IO N S


          CHARLES FUNDERBURK, CPA                                      ANNE K. VOEGELE
              S E N IO R A U D IT O R                                   IN V E S T I G A T O R

             D W IG H T E N G E L R U P , C P A
                  S E N IO R A U D IT O R

                     TAMMY RAPP
                     E D P A U D IT O R




                                                                                                                                       Page 10
Inspector General’s Semiannual Report         National Credit Union Administration



                             AUDIT ACTIVITY

AUDIT REPORTS ISSUED

Y2K Internal Systems Review, Report No. 993, dated May 19, 1999

We evaluated NCUA’s efforts regarding Year 2000 (Y2K) readiness for the internal
NCUA mission critical information systems. Our review objective was to provide
the NCUA Board and management with an independent analysis of the Y2K testing
compliance for each of the mission critical systems identified by NCUA and to
provide recommendations for correction of noted deficiencies.

We noted that NCUA has completed testing for each of its mission critical systems
and the testing was performed in accordance with federal standards and industry
practices. Testing documentation was found to be adequate to support the work
performed. The review did not disclose any additional testing needed for the
NCUA seven mission critical systems and two additional systems.

The report noted that NCUA is currently in the process of finalizing contingency
plans to be implemented in the event of a disruption due to Y2K problems. NCUA
has taken precautions and actions to mitigate the risk of Y2K related failures on its
internal mission critical systems. However, because of the unprecedented nature of
the Year 2000 issue, its effects and successes of related remediation efforts will not
be fully determinable until the year 2000 and thereafter.

The OIG offered nine suggestions as matters for consideration by the NCUA Board
and agency management to improve Y2K internal systems readiness. Suggested
actions were grouped into three categories: (1) NCUA should continue efforts to
finalize and implement its Y2K contingency plans, (2) NCUA should implement
steps to improve Y2K management and control within the Project Office function,
and (3) NCUA should determine the appropriate level of additional testing that
needs to be performed to ensure systems remain Year 2000 compliant if subsequent
changes are made to the information system environment.


Y2K Credit Union Progress In Meeting Renovation Milestone, Report No.
997, dated June 15, 1999

The NCUA, in addressing potential Y2K problems in federally insured credit unions
information systems, adopted milestone dates for credit unions to accomplish
specific Y2K tasks. The purpose of the milestone dates was to ensure credit union
information systems were ready to function in a timely manner. The OIG evaluated
federally insured credit unions’progress in meeting the renovation phase milestone


                                                                               Page 11
Inspector General’s Semiannual Report         National Credit Union Administration

date established by NCUA. Our specific review objectives were to evaluate the
progress of credit unions in meeting the January 31, 1999 Y2K milestone for
completion of the renovation phase; and to determine if the December 31, 1998
quarterly reports filed by the credit unions with NCUA were reporting accurate
results of the renovation phase.

We observed that NCUA had reported that most federally insured credit union
mission critical systems were renovated by the NCUA milestone of January 31,
1999. However, our review found that many of those credit unions not fully
renovated by the milestone date were not covered by waivers or administrative
actions. NCUA has since made significant progress to address this situation.

We also found that there were some inaccuracies reported in the quarterly Y2K
status reports prepared by credit unions and submitted to NCUA. The inaccuracies
resulted in at least one region initially under reporting credit unions fully renovated
for the period ended December 31, 1998. The agency has increased efforts to
ensure the accuracy of the quarterly credit union status reports.

We reviewed documentation for 33 credit unions not fully renovated or with
waivers in Regions II and III for the milestone date. We found that as of March 31,
1999, of the sample credit unions, the agency reported 28 were fully renovated, two
had applied for waivers, and the remaining three credit union reports contained
renovation reporting errors.

Credit unions without Y2K compliant information systems are required to prepare
and submit quarterly status reports to NCUA. We reviewed the December 31, 1998
credit union prepared Y2K quarterly reports for our sample. We found that there
were errors in a significant number of the submitted reports. Over 50 percent of the
reports we reviewed contained some inaccurate information. Eighteen incorrectly
reported the percentage of critical systems which were fully renovated.

Our review of sample documentation indicated that, overall, examiners addressed
problems noted in credit unions and identified plans to resolve the problems. The
dates of contact in some instances were early in the Y2K process when milestone
dates had not expired and therefore the comments and plans to resolve the problems
were brief and general in nature. We noted that Documents of Resolution were
prepared when deemed necessary along with plans for future follow-up by the
examiner. Our review focused on documentation available at the regional office and
did not include follow-up with the examiner to determine if follow-up plans
identified were actually carried out.

The OIG offered two suggestions as matters for consideration by the NCUA Board
and agency management to improve credit unions efforts in meeting the Y2K
renovation milestone.




                                                                                Page 12
Inspector General’s Semiannual Report        National Credit Union Administration


AUDITS IN PROCESS

Progress of High Risk Credit Unions

This is our fourth Year 2000 review and focuses on NCUA’s follow-up of high risk
credit unions. Our review objectives were to evaluate whether credit unions rated
“unsatisfactory” (credit unions under administrative actions) and those rated “needs
improvement” (examiner rated high risk - not progressing satisfactorily) are
receiving appropriate and timely follow-up; and to determine if high risk credit
unions have adequate Y2K business resumption contingency plans. In addition, we
reviewed a small sample of credit unions rated satisfactory (low and medium risk
rated credit unions) to determine if the rating appeared justified based upon
NCUA’s criteria. We are in the process of briefing NCUA management on the draft
report and expect to issue the final shortly.

Review of Y2K Liquidity Contingency Funding Plans

We are in the process of issuing the fifth report in the OIG series of reports
addressing the Y2K computer problem as it relates to the NCUA and federally
insured credit unions. This report addresses steps that NCUA has taken to address
emergency Y2K liquidity issues and includes our review of a sample of natural
person credit union liquidity contingency funding plans. Our specific review
objectives were: (a) to determine if NCUA has taken a proactive role to address
emergency liquidity issues and to minimize disruption at the credit unions it
oversees; and (b) to determine if natural person credit unions have adequate plans to
address Y2K liquidity issues. The draft report is currently being reviewed for
discussion with agency management.

Y2K Credit Union Vendor Status

We have completed review fieldwork of credit union computer system vendors’
status and of the actions NCUA is taking to ensure that vendors are making
satisfactory progress in providing renovated systems to its credit union clients.




                                                                             Page 13
Inspector General’s Semiannual Report        National Credit Union Administration



                    INVESTIGATION ACTIVITY


I
    nvestigative                     matters pursued by this office are generally
    initiated as a                   result of allegations, or because of potential
    findings of fraud,               waste, abuse, corruption, or mismanagement.
Investigations may involve possible violations of regulations regarding employee
responsibilities and conduct, Federal criminal law, and other statutes and regulations
pertaining to the activities of NCUA employees. Investigative findings may lead to
criminal prosecution, civil prosecution, or administrative action.

The OIG also receives complaints from credit union members that involve NCUA
employee program responsibilities. These complaints are usually examined to
determine whether there is any allegation of NCUA employee misconduct. If not,
the complaint is referred to the appropriate regional office or closed if contact with
the regional office indicates that the complaint has been appropriately handled.




    Investigative Contacts


       Contacts/inquiries/investigations carried                          6
         forward from previous reporting period

       Contacts initiated during report period                            17

                    Total contacts during reporting period                23


       Less:

       Contacts closed for lack of verifiable evidence                    11
         or referred to another office




       Reports issued and matters closed                                  2


                 Pending contacts                                         10




                                                                               Page 14
Inspector General’s Semiannual Report         National Credit Union Administration


OFFICE OF INVESTIGATIONS ACTIVITIES

During the reporting period, the Office of Investigations worked on 23 complaints,
issued one report without recommendations, and closed another OPM related report
that had been issued last year, after the NCUA Board ruled on the outstanding
recommendations. During the period, this office hired Anne Voegele, a skilled and
experienced law enforcement officer as a part-time investigator to enhance our
investigative function. Ms. Voegele most recently served with the Department of
the Treasury OIG. She is currently working on proactive reviews of agency
functions, as well as performing criminal and administrative investigative work. We
have already issued two Management Implication Reports (MIR’s) alerting NCUA
offices to specific problems we have noted during the course of such reviews, and
providing recommendations for solutions.


NCUA EXAMINER DID NOT RETALIATE AGAINST A CREDIT UNION

We issued a report of an investigation of an allegation of retaliation by a credit union
examiner. A credit union alleged that the NCUA examiner improperly abused his
authority and attempted to punish the institution by imposing harsh and unnecessary
provisions in a Letter of Understanding and Agreement. The OIG found no
evidence to substantiate the allegation.

AGENCY ISSUES INSTRUCTION ON REPORTING TO IG

On June 29, 1999, NCUA issued Instruction 1910.7, “Required Reporting and
Guidance for NCUA Officers and Employees.” The Instruction directs NCUA
employees to report all known or suspected violations of law, rules or regulations,
and instances of fraud, waste, and abuse to the OIG. It assures them that the
identity of employee complainants will be held in confidence pursuant to the IG Act.
It also advises employees when and where to report immediate threats to health and
safety, and other channels for reporting specific types of complaints. Prior to this
Instruction, there was no specific agency requirement to report to the IG.




                                                                               Page 15
Inspector General’s Semiannual Report      National Credit Union Administration


      LEGISLATIVE AND REGULATORY REVIEWS

Pursuant to its charge under the IG Act, we continually review proposed legislation
and regulations, as well as proposed agency instructions and other policy guidance,
in order to make recommendations concerning economy and efficiency in the
administration of NCUA programs and operations and the prevention and detection
of fraud, waste and abuse.

During the reporting period, the OIG reviewed 22 items, including amendments to
the IG Act, 16 proposed regulations, proposed procurement and EEO Instructions,
an OMB Bulletin, and a draft GAO report on OIG semiannual reports.

We joined with the IG community to comment on HR 1827, the Government Waste
Corrections Act of 1999. This legislation would provide agency heads the authority
to conduct “recovery audits” to identify and recover overpayments made by the
government. The IG community obtained significant changes to the original
language, which now requires consultation and coordination with agency IG’s.




                                                                           Page 16
Inspector General’s Semiannual Report        National Credit Union Administration


                       OTHER OIG ACTIVITIES

STAFF TRAINING AND DEVELOPMENT

The Inspector General (IG) continued to participate in the Financial Institutions
Regulatory Committee of the Executive Council on Integrity and Efficiency (ECIE).
The Committee provides a forum for Inspectors General of the NCUA, the Federal
Reserve System, the Department of the Treasury, the FDIC, the Federal Housing
Finance Board, the Securities and Exchange Commission, and the Farm Credit
Administration to: discuss matters of mutual interest; coordinate relevant audits,
investigations, legislative, and regulatory matters; and seek uniform approaches to
handling similar issues. The IG attended the annual PCIE/ECIE Conference on
April 29-30, and a seminar on Defending Cyberspace on September 14, 1999, along
with the audit staff and the OIG investigator.

The Assistant IG for Audits, William DeSarno, attended the IIA Audit Directors
Roundtable on April 22; and a Cost-Benefit Analysis course on June 21-23. Senior
auditors Dwight Engelrup and Charles Funderburk also attended the Cost-Benefit
Analysis course, in addition to a course on GPRA Performance Measures. EDP
auditor, Tammy Rapp, successfully completed a training seminar on Auditing SAP
R/3.

The Assistant IG for Investigations, Alexandra Keith, attended Certified Fraud
Examiner sponsored training in Finding and Investigating Fraud and the Annual
Office of Government Ethics conference. Ms. Keith is also a Vice Chairman of the
Council of Counsels to Inspectors General (CCIG) and the custodian of the CCIG
Library.


OIG TRAINS AUDITORS FOR INVESTIGATIVE WORK

The four OIG auditors underwent their second quarter of internal investigative
training from the AIGI and our new investigator this September. They studied the
difference between criminal, civil, and administrative violations. They also discussed
investigative interviewing techniques in detail. The training is expected to enhance
the auditors’ability to assist the Office of Investigations.




                                                                              Page 17
     Inspector General’s Semiannual Report         National Credit Union Administration




                                          TABLE I

                     INSPECTOR GENERAL ISSUED REPORTS
                           WITH QUESTIONED COSTS
                                                       Number     of Questioned       Unsup
                                                       Reports       Costs            ported
                                                                                      Costs

A.     For which no management decision had
       been made by the start of the reporting 0                      $0              $0
       period.

B.     Which were issued during the reporting
       period.                                0                        0               0

       Subtotals (A + B)                               0               0                0

C.     For which management decision was made
       during the reporting period.           0                        0                   0

       (i) Dollar value of disallowed costs            0                0                  0

       (ii) Dollar value of costs not disallowed       0                0                  0

D.     For which no management decision has
       been made by the end of the reporting 0                             0               0
       period.

E.     Reports for which no management decision
       was made within six months of issuance.  0                           0              0




     Questioned costs are those costs the OIG has questioned because of alleged
     violations of laws, regulations, contracts, or other agreements; findings which at the
     time of the audit are not supported by adequate documentation; or the expenditure
     for the intended purpose is unnecessary or unreasonable.

     Unsupported costs (included in "Questioned Costs") are those costs the OIG has
     questioned because of the lack of adequate documentation at the time of the audit.



                                                                                   Page 18
     Inspector General’s Semiannual Report      National Credit Union Administration



                                       TABLE II

              INSPECTOR GENERAL ISSUED REPORTS
     WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                        Number of          Dollar
                                                        Reports            Value

A.     For which no management decision had been
       made by the start of the reporting period. 0                        $0

B.     Which were issued during the reporting period.   0                  0

       Subtotals (A + B)                                0                  0

C.     For which management decision was made
       during the reporting period.           0                            0

       (i) Dollar value of recommendations agreed to
       by management.                                N/A                   0

       (ii) Dollar value of recommendations not agreed
       to by management.                               N/A                 0

D.     For which no management decision was made
       by the end of the reporting period.       0                         0

E.     For which no management decision was made
       within six months of issuance.            0                         0


     Recommendations that "Funds to be Put to Better Use" are those OIG
     recommendations that funds could be used more efficiently if management took
     actions to reduce outlays, de-obligate funds from programs/operations, avoid
     unnecessary expenditures noted in pre-award reviews of contracts, or any other
     specifically identified savings.




                                                                               Page 19
 Inspector General’s Semiannual Report   National Credit Union Administration


                                 TABLE III

                     SUMMARY OF OIG ACTIVITY
             APRIL 1, 1999 THROUGH SEPTEMBER 30, 1999
                             (THREE PARTS)
PART I – AUDIT REPORTS ISSUED
Report                                                                      Date
Number         Title                                                        Issued
993            Y2K Internal Systems Review                                  5/19/99
997            Y2K Credit Union Progress In Meeting                         6/15/99
               Renovation Milestone




PART II – AUDITS IN PROCESS (as of September 30, 1999)
               Y2K Progress of High Risk Credit Unions
               Y2K Review of Liquidity Contingency Funding Plans
               Y2K Credit Union Vendor Status

PART III –         REVIEWS OF STATUTES & REGULATIONS
Statutes                                    Title
S. 870             Inspector General Act Amendments of 1999
HR 1827            Government Waste Corrections Act of 1999
Regulations                                 Title
12 CFR 701         Charitable Contributions
12 CFR 741.4       Insurance Premiums
12 CFR 701.14(d)   Change in Officials
12 CFR 701,713,    Fidelity Bond
714
12 CFR 701,722,    Member Business Loan Rule
723, 741
12 CFR 701.34      Secondary Capital Accounts
12 CFR 703, 712    CUSO Rule
12 CFR 714         Leasing
12 CFR 745         Share Insurance
12 CFR 701         Overdraft Accounts
12 CFR 724, 745    Puerto Rico IRA’s
12 CFR 721         Insurance and Group Purchasing
12 CFR 712         CUSO Real Estate Brokerage Services




                                                                      Page 20
Inspector General’s Semiannual Report   National Credit Union Administration




                    WE WANT TO HEAR FROM YOU




                    TOLL FREE 1-800-778-4806

                   WASHINGTON METRO AREA
                       703-518-6357
     You may call ANONYMOUSLY, or request that YOUR call be kept
                        CONFIDENTIAL




                                                                     Page 21
